Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 A COMPARISON OF AVERAGE 

  SALES PRICES TO WIDELY 

AVAILABLE MARKET PRICES FOR 

     INHALATION DRUGS





                    Daniel R. Levinson

                     Inspector General 


                       July 2008

                     OEI-03-07-00190

                  Office of Inspector General

                                   http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support for OIG’s internal operations. OCIG represents OIG in all civil and administrative
fraud and abuse cases involving HHS programs, including False Claims Act, program
exclusion, and civil monetary penalty cases. In connection with these cases, OCIG also
negotiates and monitors corporate integrity agreements. OCIG renders advisory opinions,
issues compliance program guidance, publishes fraud alerts, and provides other guidance to
the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
E X E C U T I V E                         S U         M M A R Y
Δ    E X E C U T I V E                                 S U M M A R Y


                   OBJECTIVE
                   To determine whether the volume-weighted average sales price (ASP)
                   exceeded the widely available market price by at least 5 percent for any
                   of the five inhalation drugs under review.


                   BACKGROUND
                   Sections 1847A(d)(1) and (2) of the Social Security Act (the Act), as
                   added by the Medicare Prescription Drug, Improvement, and
                   Modernization Act of 2003, P.L. No. 108-173, direct the Office of
                   Inspector General (OIG) to undertake pricing studies that compare
                   ASPs to widely available market prices and average manufacturer
                   prices (AMP). If OIG finds that the ASP for a drug exceeds the widely
                   available market price by a certain threshold (currently 5 percent),
                   section 1847A(d)(3) of the Act states that the Secretary of the
                   Department of Health and Human Services (the Secretary) may
                   disregard the ASP for the drug when setting reimbursement. After
                   being so informed by OIG, the Secretary shall substitute the payment
                   amount for that drug (typically 106 percent of the ASP) with the lesser
                   of the widely available market price, or 103 percent of the AMP
                   pursuant to section 1847A(d)(3)(C) of the Act. Section 1847A(d)(5)(A) of
                   the Act defines widely available market price as the price that a
                   prudent physician or supplier would pay for the drug, net of any
                   routinely available price concessions.

                   We collected pricing and sales data for the top five inhalation drug codes
                   (according to 2006 utilization data) from 24 distributors. To calculate
                   the widely available market prices, we divided the total sales (net of
                   discounts, where available) for the second quarter of 2007, i.e., April 1
                   through June 30, 2007, by the total number of units sold during the
                   same quarter. For the five drug codes under review, we compared
                   fourth-quarter 2006 volume-weighted ASPs (the basis of second-quarter
                   2007 Medicare payment amounts) to second-quarter 2007 widely
                   available market prices and identified codes for which the ASP exceeded
                   the widely available market price by at least 5 percent. We estimated
                   the amount that Medicare would have saved by lowering
                   reimbursement to the widely available market price for any codes that
                   met or exceeded the 5-percent threshold.

                   After data collection began, the Centers for Medicare & Medicaid
                   Services (CMS) changed the way in which it pays for two of the

 OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   i
E X E C U T I V E                         S U         M M A R Y


                   inhalation drugs under review (albuterol and levalbuterol). As
                   explained in a May 2007 coding announcement, CMS reestablished a
                   single drug code for albuterol and levalbuterol effective July 1, 2007.
                   Payment for the new code was based on a combination of ASPs for both
                   drugs.

                   The application of a provision in the Medicare, Medicaid, and SCHIP
                   Extension Act of 2007 (Extension Act) effectively required separate
                   payment amounts for albuterol and levalbuterol beginning in
                   April 2008. After we completed our analysis, but before we issued a
                   draft report, CMS established separate payment amounts for albuterol
                   and levalbuterol, as required by the Extension Act.


                   FINDINGS
                   The volume-weighted average sales price for two of the five
                   inhalation drugs under review exceeded the widely available market
                   price by at least 5 percent in the second quarter of 2007. In the
                   second quarter of 2007, two of the five codes included in this analysis
                   surpassed the threshold specified in section 1847A(d)(3)(B) of the Act.
                   For albuterol, the volume-weighted ASP exceeded the widely available
                   market price by 85 percent; for levalbuterol, the volume-weighted ASP
                   exceeded the widely available market price by 19 percent. Had
                   Medicare payment amounts for albuterol and levalbuterol been based on
                   widely available market prices in the second quarter of 2007, we
                   estimate that Medicare expenditures would have been reduced by
                   $27 million.
                   Because of CMS’s May 2007 coding change, the Medicare payment
                   amount for albuterol in the third quarter of 2007 may have been
                   13 times greater than its widely available market price. As reflected
                   in the May 2007 coding announcement, CMS reestablished a single drug
                   code for albuterol and levalbuterol and based Medicare payment for
                   these drugs on the ASPs of both products effective July 1, 2007. From
                   the second to the third quarter of 2007, this coding change resulted in a
                   650-percent increase in the Medicare payment amount for albuterol and
                   a 66-percent decrease in the Medicare payment amount for levalbuterol.
                   Assuming that the market prices did not change substantially in
                   subsequent quarters, the new payment amount was 13 times greater
                   than the widely available market price for albuterol and 57 percent less
                   than the widely available market price for levalbuterol in the third
                   quarter of 2007.


 OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   ii
E X E C U T I V E                         S U         M M A R Y 




                   SUMMARY
                   OIG compared ASPs to widely available market prices to identify
                   instances in which the volume-weighted ASPs for five inhalation drugs
                   exceeded the widely available market price by a threshold of 5 percent.
                   We identified two drugs (albuterol and levalbuterol) that exceeded the
                   5-percent threshold in the second quarter of 2007. However, CMS
                   established a single payment code and amount for albuterol and
                   levalbuterol effective July 1, 2007. As a result of this change, the
                   Medicare payment amount for albuterol in the third quarter of 2007
                   may have been 13 times greater than the widely available market price
                   in the previous quarter. In contrast, the Medicare payment amount for
                   levalbuterol in the third quarter of 2007 was 57 percent below the
                   widely available market price in the previous quarter.

                   After we completed our analysis, but before we issued a draft report,
                   CMS separated albuterol and levalbuterol back into two codes, thereby
                   establishing separate payment amounts for the two drugs. As of
                   April 1, 2008, the new Medicare payment amount for albuterol is
                   $0.044 per milligram, an amount very close to the widely available
                   market price ($0.041) we calculated for the second quarter of 2007. The
                   new Medicare payment amount for levalbuterol under the new
                   calculation method required by the Extension Act is $0.280 per
                   0.5 milligrams, which is substantially lower than the widely available
                   market price of $1.218 from the second quarter of 2007. In future
                   studies, OIG will continue to monitor the utilization of and payment for
                   inhalation drugs.


                   AGENCY COMMENTS
                   CMS states that the Extension Act not only established a special
                   payment rule for certain inhalation drugs included in this study but
                   also revised the volume-weighting methodology for determining
                   payments based on the ASP. As a result, CMS believes that there are
                   limitations to this study’s methodology and findings directly related to
                   the calculation of the volume-weighted ASP. In addition, CMS notes
                   that because levalbuterol is required to be treated as a multiple-source
                   drug for payment purposes, the agency is concerned that OIG’s pricing
                   comparison for the drug may not be accurate.




 OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   iii
E X E C U T I V E                         S U         M M A R Y 




                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   OIG notes that, unlike the methodology for determining the ASP, the
                   methodology for determining the widely available market price is not
                   explicitly defined in statute. Rather, the statute indicates that OIG’s
                   determination of this price should reflect what a prudent physician or
                   supplier would pay for a drug based on data collected from any number
                   of specified sources taking into account price concessions. In meeting
                   this requirement, we calculated the widely available market price in a
                   manner (total sales divided by total units sold) consistent with the ASP
                   calculation as defined by the Extension Act, rather than CMS’s now
                   discontinued methodology.
                   Furthermore, we understand that provisions of the Act require
                   levalbuterol to be classified as a multiple-source drug for payment
                   purposes. However, the widely available market price that we
                   calculated illustrates how the Medicare payment amount determined
                   under the method required by the Extension Act compares to the actual
                   price of the drug in the marketplace.




 OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    ASPs exceeded widely available market prices for two drugs . . . . 10 


                    Payment for albuterol is higher than its market price . . . . . . . . . 11 



         S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                    Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 14 



         APPENDIXES                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                    A:	 Changes to Medicare Payment Methodology for Albuterol
 ..........
                        and Levalbuterol . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                    B: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine whether the volume-weighted average sales price (ASP)
                  exceeded the widely available market price by at least 5 percent for any
                  of the five inhalation drugs under review.


                  BACKGROUND
                  Sections 1847A(d)(1) and (2) of the Social Security Act (the Act), as
                  added by the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA), P.L. No. 108-173, direct the Office
                  of Inspector General (OIG) to undertake pricing studies that compare
                  ASPs to widely available market prices and average manufacturer
                  prices (AMP). If the ASP for a drug exceeds the widely available
                  market price by a certain threshold (currently 5 percent), the
                  Secretary of the Department of Health and Human Services (the
                  Secretary) may disregard the ASP for the drug when setting
                  reimbursement, pursuant to section 1847A(d)(3) of the Act. Section
                  1847A(d)(3)(C) of the Act goes on to state that “ . . . the Inspector
                  General shall inform the Secretary (at such times as the Secretary
                  may specify to carry out this subparagraph) and the Secretary shall,
                  effective as of the next quarter, substitute for the amount of payment
                  . . . the lesser of (i) widely available market price . . . (if any); or
                  (ii) 103 percent of the AMP. . . .”1
                  Section 1847A(d)(5)(A) of the Act defines widely available market price
                  to be the price that a prudent physician or supplier would pay for the
                  drug, net of any routinely available price concessions. In determining
                  widely available market prices, OIG is authorized to consider
                  information from sources including (but not limited to) manufacturers,
                  wholesalers, distributors, physicians, and suppliers.2
                  Medicare Part B Coverage of Inhalation Drugs
                  Medicare Part B currently covers only a limited number of outpatient
                  prescription drugs, including drugs used in conjunction with durable
                  medical equipment (DME); injectable drugs administered by a
                  physician; certain self-administered drugs, such as oral anticancer

                     1 Section 1927(k)(1) of the Act defines AMP as the average price paid to the manufacturer
                  by wholesalers in the United States for drugs distributed to the retail pharmacy class of
                  trade. Pursuant to section 6001(c)(1) of the Deficit Reduction Act of 2005, the AMP will be
                  determined without regard to customary prompt pay discounts beginning January 1, 2007.
                     2 Section 1847A(d)(5)(B) of the Act.




OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   1
I N T R O D        U C T            I O N


                    drugs and immunosuppressive drugs; and some vaccines.3 Inhalation
                    drugs used in conjunction with a nebulizer are covered by Medicare Part
                    B under the DME provisions.4 These drugs treat and prevent symptoms
                    brought on by lung diseases, such as asthma and chronic obstructive
                    pulmonary disorder.
                    Medicare Part B Payments for Inhalation Drugs
                    Suppliers (e.g., home care companies, mail order pharmacies, and retail
                    pharmacies) typically provide the inhalation drugs prescribed by
                    physicians to Medicare beneficiaries. Suppliers can purchase the drugs
                    through several sources, including wholesalers, distributors, and
                    manufacturers.
                    To obtain Medicare payment for inhalation drugs, suppliers submit
                    claims using codes established by the Centers for Medicare & Medicaid
                    Services (CMS) as part of the Healthcare Common Procedure Coding
                    System (HCPCS).5 The HCPCS codes provide a standardized coding
                    system for describing the specific items and services provided in the
                    delivery of health care. In the case of prescription drugs, each HCPCS
                    code defines the drug name and dosage size but does not specify
                    manufacturer or package size information.6
                    Medicare and its beneficiaries paid over $900 million for inhalation
                    drugs in 2006, with five HCPCS codes representing 97 percent of
                    Medicare expenditures for inhalation drugs. 7 8 The five HCPCS codes
                    for inhalation drugs with the highest Medicare expenditures in 2006 are
                    listed in Table 1 on the following page.




                       3 For the purpose of this report, the term “Part B-covered drugs” refers to outpatient
                    prescription drugs covered by Medicare Part B. Part B-covered drugs do not refer to drugs
                    billed under Part A but paid with Part B funds, such as drugs administered in a dialysis
                    setting.
                       4 70 Fed. Reg. 10746, 10747 (Mar. 4, 2005).
                       5 CMS contracts with private companies, known as carriers, to process and pay Medicare
                    Part B claims, including those for inhalation drugs.
                       6 Typically, HCPCS codes correspond to a single drug distributed by one or more
                    manufacturers. However, in some cases, HCPCS codes may represent several different
                    drugs.
                      7 Medicare and its beneficiaries paid over $11 billion for all Part B-covered prescription
                    drugs in 2006.
                      8 Medicare Part B Extract and Summary System (99 percent of claims reported).
                    Accessed July 30, 2007.



 OEI-03-07-00190    A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   2
I N T R O D        U C T            I O N 





                      Table 1. HCPCS Codes for Inhalation Drugs With the Highest Medicare
                      Expenditures in 2006

                      HCPCS                                                                                     Short                                          2006
                      Code                                                                                Description                                   Expenditures

                      J7614*                    Levalbuterol inhalation solution (unit dose), 0.5 mg                                                    $366,421,299

                      J7620*                    Albuterol, up to 2.5 mg, and ipratropium bromide,                                                       $246,224,526
                                                up to 0.5 mg, noncompounded

                      J7626*                    Budesonide inhalation solution (unit dose),                                                             $214,217,163
                                                up to 0.5 mg

                      J7613**                   Albuterol inhalation solution (unit dose), 1 mg                                                          $41,358,006

                      J7644**                   Ipratropium bromide inhalation solution (unit dose),                                                     $16,143,862
                                                1 mg

                      * Levalbuterol, the combination of albuterol and ipratropium bromide, and budesonide are single-source drugs
                      that do not have generic versions and are supplied by a single manufacturer.

                      ** Albuterol and ipratropium bromide are multiple-source drugs that have numerous generic versions and are
                      supplied by multiple manufacturers.

                      Source: CMS’s Part B Extract and Summary System data (99 percent complete). Accessed July 30, 2007.



                    Medicare Part B Payment Methodology for Inhalation Drugs
                    The MMA changed the basis of payment for most Part B-covered drugs,
                    including inhalation drugs, to ASP, effective January 1, 2005. Prior to
                    2005, Medicare generally paid for these drugs based on the average
                    wholesale price (AWP). 9 Numerous reports by OIG and the
                    Government Accountability Office found that the AWP-based
                    reimbursements were often significantly higher for Part B-covered
                    drugs than the prices that drug manufacturers, wholesalers, and
                    similar entities actually charged the physicians and suppliers that
                    purchase these drugs.

                    Section 1847A(c) of the Act, as added by the MMA, defines ASP as a
                    manufacturer’s sales of a drug to all purchasers in the United States in
                    a calendar quarter divided by the total number of units of the drug sold
                    by the manufacturer in that same quarter. The ASP includes all sales


                       9 In 2004, the reimbursement amount for most covered drugs was based on either
                    80 percent or 85 percent of the AWP as published in national pricing compendia, such as
                    the “Red Book.” Prior to 2004, Medicare Part B reimbursed for covered drugs based on the
                    lower of either the billed amount or 95 percent of the AWP.



 OEI-03-07-00190    A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S            3
I N T R O D        U C T            I O N


                    (e.g., sales to pharmacies that are reimbursed by Medicaid or private
                    insurance plans), not just sales reimbursed by Medicare Part B. The
                    ASP is net of any price concessions, such as volume, prompt pay, and
                    cash discounts; free goods contingent on purchase requirements;
                    chargebacks; and rebates other than those obtained through the
                    Medicaid drug rebate program.10 Sales that are nominal in amount are
                    exempted from the ASP calculation, as are sales excluded from the
                    determination of “best price” in the Medicaid drug rebate program.11 12
                    Manufacturers report ASPs by national drug code (NDC), which is an
                    11-digit identifier that indicates the drug name, the manufacturer of the
                    drug, the product dosage form, and the package size. Manufacturers
                    must provide CMS with the ASP and volume of sales for each NDC on a
                    quarterly basis, with submissions due 30 days after the close of the
                    quarter.13
                    Because Medicare payment for Part B-covered drugs is based on
                    HCPCS codes rather than NDCs, and more than one NDC may meet the
                    definition of a particular HCPCS code, CMS has developed a file that
                    “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                    information in the crosswalk to calculate volume-weighted ASPs for
                    covered HCPCS codes.

                    There is a two-quarter lag between the time when sales reflected in the
                    ASP occur and the time when these sales become the basis for Medicare
                    payment amounts. For example, fourth-quarter 2006 ASP submissions
                    from manufacturers served as the basis for second-quarter 2007
                    Medicare payment for most Part B-covered drug codes. As of
                    January 1, 2005, Medicare payment amounts for most Part B-covered
                    prescription drugs are equal to 106 percent of the volume-weighted
                    ASPs for the HCPCS codes. Medicare beneficiaries are responsible for
                    20 percent of this amount in the form of coinsurance.




                       10 Section 1847A(c)(3) of the Act.
                       11 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                    from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
                    maintenance organization, nonprofit entity, or governmental entity within the United
                    States, with certain exceptions.
                       12 Section 1847A(c)(2) of the Act.
                       13 Section 1927(b)(3) of the Act.




 OEI-03-07-00190    A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   4
I N T R O D        U C T            I O N




                    Changes to Medicare Payment for Inhalation Drugs
                    The way Medicare pays for two inhalation drugs (albuterol and
                    levalbuterol) has undergone several changes since 2003.

                    •	     In 2003, albuterol and levalbuterol were included in the same
                           HCPCS code (J7619) and had the same Medicare payment amount.14
                    •	     Effective January 1, 2005, CMS created separate HCPCS codes and
                           Medicare payment amounts for both albuterol (J7613) and
                           levalbuterol (J7614).

                    •	     However, as reflected in a May 2007 coding announcement, CMS
                           reestablished a single HCPCS code (Q4094) for albuterol and
                           levalbuterol effective July 1, 2007.15 Payment for the new code was
                           based on a combination of the ASPs for both drugs.16
                    •	     A provision in the Medicare, Medicaid, and SCHIP Extension Act of
                           2007 (Extension Act) provides flexibility in payment determinations
                           designed to yield the lowest payment amount for certain drugs
                           including those studied for this report. After we completed our
                           analysis, but before we issued a draft report, CMS once again
                           established separate HCPCS codes and payment amounts for
                           albuterol (J7613) and levalbuterol (J7614), as required by the
                           Extension Act, effective April 1, 2008.17 18
                    For a more detailed discussion of recent changes to Medicare payment
                    for albuterol and levalbuterol, please refer to Appendix A.



                         14 For the purpose of this review, albuterol and levalbuterol refer to the unit-dose forms
                    of these drugs; this review does not include the concentrated forms. Levalbuterol is
                    produced by one manufacturer (Sepracor) under the brand name of Xopenex, has its own
                    patent, and contains only a therapeutically active single isomer (molecule). Albuterol is a
                    two-isomer (molecule) inhalation drug with numerous generic versions and is supplied by
                    multiple manufacturers. According to the Food and Drug Administration, levalbuterol and
                    albuterol are not therapeutically equivalent.
                         15 CMS Coding Announcement. Available online at
                    http://www.cms.hhs.gov/MedHCPCSGenInfo/Downloads/051807_coding_announcement.pdf.
                    Accessed on May 22, 2007.
                      16 For the third quarter of 2007, the Medicare payment amount increased nearly
                    650 percent for albuterol (from $0.081 per milligram to $0.525 per milligram) and decreased
                    by 66 percent for levalbuterol (from $1.535 per half milligram to $0.525 per half-milligram).
                         17 Section 112(b)(2) of the Extension Act.
                         18 For the second quarter of 2008, the Medicare payment amount for albuterol is
                    $0.044 per milligram and for levalbuterol is $0.280 per half milligram.



 OEI-03-07-00190    A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   5
I N T R O D        U C T            I O N


                    Related Work by the Office of Inspector General
                    A June 2006 report entitled “A Comparison of Average Sales Prices to
                    Widely Available Market Prices: Fourth Quarter 2005”
                    (OEI-03-05-00430) was the first OIG review to compare ASPs to widely
                    available market prices. For that review, OIG compared second-quarter
                    2005 volume-weighted ASPs (the basis of fourth-quarter 2005 Medicare
                    payment amounts) to fourth-quarter 2005 widely available market
                    prices for nine HCPCS codes identified by a previous OIG study for
                    which ASPs exceeded widely available market prices by at least
                    5 percent.19 OIG found that for five of nine HCPCS codes under review,
                    the volume-weighted ASPs exceeded widely available market prices by
                    the 5-percent threshold specified in section 1847A(d)(3) of the Act. As
                    estimated in OIG’s report, lowering the payment amount for these five
                    codes to widely available market prices would have reduced Medicare
                    expenditures by $67 million in 2006.

                    In addition, OIG issued several reports that focused specifically on
                    concerns about Medicare payment amounts for the inhalation drugs
                    albuterol and ipratropium bromide prior to MMA’s passage.20 For
                    example, two January 2004 OIG reports found that in 2003 (when
                    payment was based on AWP), the Medicare payment amounts for
                    albuterol and ipratropium bromide were substantially higher than the
                    amounts paid by other Government payers (i.e., the Department of
                    Veterans Affairs, Medicaid) and prices paid by distributors.21


                    METHODOLOGY
                    Scope and Data Collection
                    Scope. This review compared the volume-weighted ASPs to widely
                    available market prices for the five inhalation drugs with the highest
                    Medicare expenditures in 2006 (see Table 1 on page 3). We obtained the
                    ASP data from CMS and widely available market price data from
                    inhalation drug distributors.




                      19 “Adequacy of Medicare Part B Drug Reimbursement to Physician Practices for the
                    Treatment of Cancer Patients” (A-06-05-00024), September 2005.
                      20 OIG issued several reports focusing on Medicare payment for inhalation drugs:
                    OEI-03-01-00410, March 2002; OEI-03-03-00510, January 2004; OEI-03-01-00411,
                    March 2002; OEI-03-03-00520, January 2004.
                       21 OEI-03-03-00510, January 2004; OEI-03-03-00520, January 2004.




 OEI-03-07-00190    A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   6
I N T R O D        U C T            I O N


                    Widely Available Market Price Data. In July 2007, we sent surveys to
                    31 distributors identified by Sepracor (the manufacturer of levalbuterol)
                    as having sold inhalation drugs during recent quarters.22 The surveys
                    requested that the distributors provide total sales23 and sales volume for
                    the second quarter of 2007 by NDC for the five inhalation drugs under
                    review. We also asked distributors to include any discounts and rebates
                    that they offered to their customers.24 Between July and October 2007,
                    24 of 31 distributors provided us with inhalation drug sales data. Three
                    additional distributors provided data after the collection deadline; we
                    did not include these data in our analysis. The remaining four
                    distributors have not provided sales data for inhalation drugs as of
                    May 2008.25
                    CMS Data. We obtained volume-weighted ASP data from CMS for the
                    fourth quarter of 2006 (basis for second-quarter 2007 Medicare payment
                    amounts) and first quarter of 2007 (basis for third-quarter 2007
                    Medicare payment amounts).
                    Data Analysis
                    We excluded from our analysis any sales data submitted by distributors
                    related to NDCs that were not associated with the five inhalation drugs
                    included in this review.26 In addition, we excluded from this analysis
                    any sales transactions in which both the sales volume and total amount
                    paid (net discounts, where applicable) were negative. Finally, we
                    excluded data that did not include the dates of sale. Two of the


                       22 OIG obtained a list of distributors only from Sepracor because the scope of the
                    inspection was limited to levalbuterol at the time of sample selection. Because the list
                    obtained from Sepracor included the largest national distributors of prescription drugs as
                    well as numerous regional distributors, OIG believes that the distributors surveyed for this
                    review are an accurate reflection of the inhalation drug market.
                       23 Most distributors provided total sales. However, two distributors do not resell
                    inhalation drugs; they provide the drugs directly to pharmacies. These two distributors
                    provided data on their total purchases for inhalation drugs. For the purpose of this
                    analysis, data from these two distributors is considered “sales” data.
                       24 Several distributors responded that they offered price discounts to their customers but
                    were unable to provide any specific data on discounts. We were unable to include the
                    discounts from these distributors in our calculation of widely available market prices.
                    Therefore, the actual widely available market prices could be lower than the prices reported
                    in the findings.
                       25 We sent up to two follow-up surveys and made several attempts to contact
                    nonresponding distributors by phone when they did not submit pricing data.
                       26 For example, albuterol is produced in both inhalation solution and tablet forms. The
                    scope of this review is limited to albuterol inhalation solution, and therefore, we excluded
                    sales data related to national drug codes for albuterol tablets from this analysis.



 OEI-03-07-00190    A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   7
I N T R O D        U C T            I O N


                    twenty-four responding distributors did not provide the dates of sale for
                    any of their sales data; therefore, we excluded all sales from these two
                    distributors from our analysis.

                    We aggregated the remaining NDCs by their corresponding HCPCS
                    codes. To calculate the widely available market price for each of the
                    inhalation drugs, we summarized the total sales for the second quarter
                    of 2007 to all customers (net of discounts, where available) and divided
                    that number by the total number of units sold during the same
                    quarter.27
                    Comparing ASPs to Widely Available Market Prices. For each HCPCS code
                    under review, we compared the volume-weighted ASPs from the fourth
                    quarter of 2006 (basis for second-quarter 2007 Medicare payment
                    amounts) to the respective widely available market prices from the second
                    quarter of 2007. Consistent with the directive in the MMA, we calculated
                    the percentage difference between the widely available market price and
                    volume-weighted ASP for each inhalation drug HCPCS code and identified
                    the codes that met or exceeded the 5-percent threshold defined by the
                    MMA.
                    Monetary Impact. For HCPCS codes that met or surpassed the 5-percent
                    threshold, we estimated what the monetary impact would have been in the
                    second quarter of 2007 if Medicare based payment for these HCPCS codes
                    on the widely available market prices found in this report. We subtracted
                    the second-quarter 2007 widely available market price from the
                    second-quarter 2007 Medicare payment amount for the HCPCS code,
                    which is equal to 106 percent of the volume-weighted ASP. To estimate
                    the financial impact for the second quarter of 2007, we multiplied the
                    difference by one-fourth of the number of services allowed by Medicare for
                    each HCPCS code in 2006, as reported in CMS’s Part B Extract and
                    Summary System.28 This estimate assumes that the number of services
                    that were allowed by Medicare in 2006 remained consistent from one
                    quarter to the next and that there were no significant changes in
                    utilization between 2006 and 2007.



                       27 The unit values are based on the volume-weighted ASP calculation for each drug.
                    ASPs for albuterol/ipratropium bromide and budesonide are calculated on a per unit basis.
                    ASPs for albuterol and ipratropium bromide are calculated per milligram. The ASP for
                    levalbuterol is calculated per 0.5 milligram.
                      28 As of July 30, 2007, CMS’s 2006 Medicare Part B Extract and Summary System was
                    99-percent complete.



 OEI-03-07-00190    A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   8
I N T R O D        U C T            I O N


                    Impact of Inhalation Drug Coding Change. We also analyzed the potential
                    impact of recent coding and payment changes regarding albuterol and
                    levalbuterol. We compared the second-quarter 2007 Medicare payment
                    amounts for albuterol and levalbuterol to the third-quarter 2007 Medicare
                    payment amount for the new HCPCS code (Q4094), which is based on
                    ASPs of both drugs. We also compared the third-quarter 2007 Medicare
                    payment amount to the widely available market price for albuterol and
                    levalbuterol to determine the difference between Medicare payment and
                    acquisition costs.
                    Limitations
                    We did not verify the accuracy of the sales data provided by the
                    distributors. We were unable to include all distributor discounts and
                    rebates in our calculation of widely available market price. Therefore,
                    the actual widely available market price could be lower than the prices
                    reported in the findings.

                    After we completed our analysis, but before we issued a draft report,
                    CMS once again established separate HCPCS codes and payment
                    amounts for albuterol (J7613) and levalbuterol (J7614), as required by
                    the Extension Act, effective April 1, 2008.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-07-00190    A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   9
 Δ           F I N D I N G S

   The volume-weighted average sales price for                         Consistent with sections
   two of the five inhalation drugs under review                       1847A(d)(1) and (2) of the Act, we
                                                                       compared ASPs and widely
exceeded the widely available market price by at
                                                                       available market prices for five
   least 5 percent in the second quarter of 2007
                                                                       inhalation drugs to identify
                                   instances in which the volume-weighted ASP for a particular drug
                                   exceeded the widely available market price by at least 5 percent. Two of
                                   the five HCPCS codes surpassed the 5-percent threshold in the second
                                   quarter of 2007: albuterol (J7613) and levalbuterol (J7614). As Table 2
                                   illustrates, the volume-weighted ASP for albuterol exceeded the widely
                                   available market price by 85 percent; the volume-weighted ASP for
                                   levalbuterol exceeded the widely available market price by 19 percent.29
Table 2. Inhalation Drugs for Which the Volume-Weighted ASP Exceeded the Widely Available Market Price
by at Least 5 Percent in the Second Quarter of 2007

HCPCS                                                            Short Description                    Second-Quarter                       Fourth-Quarter              Percentage
Code                                                                                                     2007 Widely                          2006 ASP**                Difference
                                                                                                      Available Market
                                                                                                                Price*

J7613                        Albuterol inhalation solution (unit dose), 1 mg                                           $0.041                            $0.076             85.4%

J7614                   Levalbuterol inhalation solution (unit dose), 0.5 mg                                           $1.218                            $1.448             18.9%

*Source: OIG analysis of second-quarter 2007 widely available market prices for inhalation drugs.

**Source: CMS’s fourth-quarter 2006 ASP file.

Note: All numbers in this table have been rounded.


                                   Medicare expenditures would have been reduced by $27 million in the
                                   second quarter of 2007 had payment amounts for albuterol and levalbuterol
                                   been based on widely available market prices. Section 1847A(d)(3)(A) of
                                   the Act states that the Secretary may disregard the ASP for the drug
                                   when setting reimbursement if OIG finds that the ASP for a drug
                                   exceeds the widely available market price by a certain threshold
                                   (currently 5 percent). Had Medicare payment amounts for albuterol
                                   and levalbuterol been based on widely available market prices in the
                                   second quarter of 2007, we estimate that Medicare expenditures for




                                     29 The actual widely available market prices for these HCPCS codes may be even lower
                                   than the prices we calculated, as multiple respondents offered price discounts but did not
                                   provide any specific discount data that could be factored into our analysis.




        OEI-03-07-00190            A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S       10
 F   I N D I N G        S


                       these drugs would have been reduced by $27 million ($6 million for
                       albuterol and $21 million for levalbuterol).30



Because of CMS’s May 2007 coding change, the                  As reflected in the May 2007
                                                              coding announcement, CMS
  Medicare payment amount for albuterol in the
                                                              reestablished a single HCPCS
  third quarter of 2007 may have been 13 times
                                                              code for albuterol and levalbuterol
  greater than its widely available market price              and based Medicare payment
                                                              amounts for these drugs on the
                       volume-weighted ASPs of both products effective July 1, 2007. From the
                       second to the third quarter of 2007, this coding change resulted in a
                       650-percent increase in the Medicare payment amount for albuterol
                       (from $0.081 to $0.525 per milligram). Assuming that market prices
                       were similar to those of the previous quarter, this new payment amount
                       for albuterol was 13 times greater than the widely available market
                       price. Furthermore, the Medicare payment amount for albuterol in the
                       third quarter of 2007 was 12 percent higher than the AWP-based
                       Medicare payment amount that was in effect prior to the
                       implementation of the MMA.31
                       In contrast, the Medicare payment amount for levalbuterol decreased by
                       66 percent between the second and third quarters of 2007 (from
                       $1.535 per 0.5 milligram to $0.525 per 0.5 milligram). This means that
                       Medicare paid for levalbuterol at an amount 57 percent below the
                       widely available market price in the third quarter of 2007 (again,
                       assuming similar market prices).

                       Table 3 on the following page presents the differences between the
                       Medicare payment amount and widely available market price for
                       albuterol and levalbuterol in the second and third quarters of 2007.




                          30 If 103 percent of the AMP is lower than the widely available market price for these
                       drugs, then Medicare expenditures would be reduced even further; however, a comparison
                       of ASPs to AMPs is beyond the scope of this report. OIG has produced several reports that
                       have compared ASPs to AMPs.
                          31 In 2003, prior to implementation of the payment reductions based on the MMA,
                       Medicare payment for albuterol was $0.47 per milligram and was based on 95 percent of
                       AWP.



     OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   11
   F    I N D I N G                  S          





Table 3. Comparison of the Medicare Payment Amount and Widely Available Market Price for Albuterol and
Levalbuterol

Drug                                                                   Second-Quarter 2007 Second-Quarter 2007                                                     Third-Quarter 2007
                                                                           Widely Available  Medicare Payment                                                      Medicare Payment
                                                                              Market Price*          Amount **                                                             Amount***
Albuterol inhalation solution (unit dose), 1 mg
                                                                                                  $0.041                                   $0.081                              $0.525

Levalbuterol inhalation solution (unit dose), 0.5 mg
                                                                                                  $1.218                                   $1.535                              $0.525

*Source: OIG analysis of second-quarter 2007 widely available market prices for inhalation drugs.

**Source: CMS’s second-quarter 2007 ASP file.

***Source: CMS’s third-quarter 2007 ASP file.

Note: In the second quarter of 2007, albuterol (J7613) and levalbuterol (J7614) had separate HCPCS codes. Effective July 1, 2007, CMS established
a single HCPCS code (Q4094) for albuterol and levalbuterol.




       OEI-03-07-00190             A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S          12
Δ   S U M M A R Y




                  OIG compared ASPs to widely available market prices to identify
                  instances in which the volume-weighted ASPs for five inhalation drugs
                  exceeded the widely available market price by a threshold of 5 percent.
                  We identified two drugs (albuterol and levalbuterol) that exceeded the
                  5-percent threshold in the second quarter of 2007. However, CMS
                  established a single HCPCS code and payment amount for albuterol and
                  levalbuterol effective July 1, 2007. As a result of this change, the
                  Medicare payment amount for albuterol in the third quarter of 2007
                  may have been 13 times greater than the widely available market price
                  in the previous quarter. In contrast, the Medicare payment amount for
                  levalbuterol in the third quarter of 2007 was 57 percent below the
                  widely available market price in the previous quarter.

                  After we completed our analysis, but before we issued a draft report,
                  CMS separated albuterol and levalbuterol back into two codes, thereby
                  establishing separate payment amounts for the two drugs. As of
                  April 1, 2008, the new Medicare payment amount for albuterol is
                  $0.044 per milligram, an amount very close to the widely available
                  market price ($0.041) we calculated for the second quarter of 2007. The
                  new Medicare payment amount for levalbuterol under the new
                  calculation method required by the Extension Act is $0.280 per
                  0.5 milligrams, which is substantially lower than the widely available
                  market price of $1.218 from the second quarter of 2007. In future
                  studies, OIG will continue to monitor the utilization of and payment for
                  inhalation drugs.


                  AGENCY COMMENTS
                  CMS states that the Extension Act not only established a special
                  payment rule for certain inhalation drugs included in this study but
                  also revised the volume-weighting methodology for determining
                  payments based on the ASP.32 As a result, CMS believes that there are
                  limitations to this study’s methodology and findings directly related to
                  the calculation of the volume-weighted ASP. Specifically, CMS notes


                     32 For an extensive discussion of volume-weighting methodologies, see “Calculation of
                  Volume-Weighted Average Sales Price for Medicare Part B Prescription Drugs”
                  (OEI-03-05-00310). Section 112(a) of the Extension Act required CMS to calculate the
                  volume-weighted ASP based on the method recommended in that report.



OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   13
S U M M A R Y


                   that OIG used two different volume-weighting methodologies in its
                   comparison; i.e., CMS’s ASPs are based on the pre-Extension Act
                   methodology while OIG’s widely available market prices are based on
                   the post-Extension Act methodology. CMS believes that the use of a
                   single volume-weighting methodology would result in a significantly
                   smaller difference between the ASP and the widely available market
                   price.

                   In addition, CMS states that based on recent statutory changes, (1) the
                   current Medicare payment amount for albuterol is very close to the
                   widely available market price identified by OIG and (2) the current
                   Medicare payment amount for levalbuterol is significantly lower than
                   in the past. CMS then notes that levalbuterol is treated as a
                   multiple-source drug pursuant to section 1847A(c)(6)(C)(ii) of the Act.
                   As a result, CMS is concerned that OIG’s comparison between the
                   Medicare payment amount and the widely available market price for
                   levalbuterol may not be accurate.

                   The full text of CMS’s comments is provided in Appendix B.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   Previous OIG work demonstrated the problems with CMS’s
                   methodology to calculate ASPs prior to the statutory changes of the
                   Extension Act. Unlike the methodology for determining the ASP, the
                   methodology for determining the widely available market price is not
                   explicitly defined in statute. Rather, the statute indicates that OIG’s
                   determination of this price should reflect what a prudent physician or
                   supplier would pay for a drug based on data collected from any number
                   of specified sources taking into account price concessions. In meeting
                   this requirement, we calculated the widely available market price in a
                   manner (total sales divided by total units sold) consistent with the ASP
                   calculation as defined by the Extension Act, rather than CMS’s now
                   discontinued methodology.

                   Furthermore, we understand that provisions of the Act require
                   levalbuterol to be classified as a multiple-source drug for payment
                   purposes. However, levalbuterol has its own patent and, according to
                   the Food and Drug Administration, is not therapeutically equivalent to
                   albuterol. During the period in which we collected widely available
                   market price data, CMS considered levalbuterol to be a single-source
                   drug. CMS’s May 2007 coding change affects Medicare payment.
                   However, when suppliers purchase levalbuterol in the marketplace,

 OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   14
S U M M A R Y


                   they do not pay a price that averages in the price of albuterol as well.
                   The widely available market price that we calculated illustrates how the
                   Medicare payment amount determined under the method required by
                   the Extension Act compares to the actual price of the drug in the
                   marketplace.




 OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   15
Δ   A P P E N D I X ~ A

                  Changes to Medicare Payment Methodology for Albuterol and Levalbuterol
                  The way Medicare pays for albuterol and levalbuterol has undergone
                  several changes since 2003. From January 2003 to December 2004,
                  albuterol and levalbuterol were included in the same Healthcare
                  Common Procedure Coding System (HCPCS) code (J7619). Under this
                  method, the payment amount for albuterol and levalbuterol was the
                  same and was based on the median average wholesale price (AWP).33
                  Effective January 1, 2005, the Centers for Medicare & Medicaid
                  Services (CMS) established separate HCPCS codes and separate
                  payment amounts for albuterol (J7613) and levalbuterol (J7614). The
                  Medicare payment amount at this time was based on 106 percent of
                  each drug’s average sales price (ASP).

                  As described in a May 2007 coding announcement, CMS reestablished a
                  single HCPCS code (Q4094) for albuterol and levalbuterol effective
                  July 1, 2007.34 Thus, as of July 1, 2007, the Medicare payment amount for
                  the code was based on a volume-weighted average of both albuterol and
                  levalbuterol. According to the coding announcement, this change was
                  made to ensure that payments reflected the “grandfathering” provision of
                  section 1847A of the Social Security Act (the Act), which states:

                             With respect to single source drugs or biologicals that are within
                             the same billing and payment code as of October 1, 2003, the
                             Secretary shall treat such single source drugs or biologicals as if
                             the single source drugs or biologicals were multiple source drugs.35
                  As a result, CMS established a single HCPCS code (Q4094) for both
                  unit-dose albuterol and unit-dose levalbuterol, effective July 1, 2007.
                  This coding change had a substantial impact on the Medicare payment
                  amounts for albuterol and levalbuterol. For the third quarter of 2007,
                  the Medicare payment amounts increased nearly 650 percent for




                     33 The Medicare payment amount for albuterol and levalbuterol was based on
                  95 percent of the AWP in 2003 and 80 percent of AWP in 2004.
                     34 CMS Coding Announcement. Available online at
                  http://www.cms.hhs.gov/MedHCPCSGenInfo/Downloads/051807_coding_announcement.pdf.
                  Accessed May 22, 2007.
                     35 Section 1847A(c)(6)(C)(ii) of the Act. CMS’s change affected the Medicare payment for
                  several other drugs as well. We did not examine the potential impact on Medicare
                  expenditures for any drugs other than albuterol and levalbuterol.



OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   16
A   P P E N D         I X ~ A


                      albuterol and decreased by 66 percent for levalbuterol compared to
                      amounts for the previous quarter.36
                      The Medicare, Medicaid, and SCHIP Extension Act of 2007
                      In December 2007, section 112(b)(2) of the Medicare, Medicaid, and
                      SCHIP Extension Act of 2007 (Extension Act) established a special rule
                      that addressed the application of the so-called “grandfathering”
                      provision of the Act.37 This provision of the Extension Act will apply to
                      certain drugs, including albuterol and levalbuterol. The provision
                      establishes a “lower of” analysis that allows flexibility in Medicare
                      payments for the affected drugs. More specifically, section 112(b)(2) of
                      the Extension Act states:
                                 Beginning with April 1, 2008, the payment amount for each single
                                 source drug or biological . . . that is treated as a multiple source
                                 drug because of the application of subsection (c)(6)(C)(ii) is the
                                 lower of-

                                                  (i) the payment amount that would be determined for such
                                                  drug or biological applying such subsection; or

                                                  (ii) the payment amount that would have been determined
                                                  for such drug or biological if such subsection were not
                                                  applied . . .

                                 [The payment amount for] a multiple source drug . . . (excluding a
                                 drug or biological that is treated as a multiple source drug because
                                 of the application of such subsection) is the lower of-

                                                  (i) the payment amount that would be determined for such
                                                  drug or biological taking into account the application of
                                                  such subsection; or

                                                  (ii) the payment amount that would have been determined
                                                  for such drug or biological if such subsection were not
                                                  applied.38



                         36 Medicare payment was $0.081 per milligram of albuterol (HCPCS code J7613) and
                      $1.535 per half milligram of levalbuterol (HCPCS code J7614) in the second quarter of 2007.
                      However, in the third quarter of 2007, the beginning of the new coding and payment
                      methodology, Medicare payment for one milligram of albuterol and one half milligram of
                      levalbuterol (HCPCS code Q4094) is $0.525.
                         37 Section 1847A(c)(6)(C)(ii) of the Act.
                         38 Section 112(b)(2)(7) of the Extension Act, codified at section 1847A(b)(7) of the Act.




    OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   17
A   P   P E N D       I X ~          A


                      For the purposes of albuterol and levalbuterol, the new rule set forth in
                      the Extension Act provided CMS the latitude to once again establish
                      separate payment amounts for each drug. Effective April 1, 2008, CMS
                      implemented provisions of the Extension Act by establishing separate
                      HCPCS codes and payment amounts for albuterol and levalbuterol.39




                        39 For the second quarter of 2008, the Medicare payment amount for albuterol is $0.044
                      per milligram and for levalbuterol is $0.280 per 0.5 milligrams.



    OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   18
Δ   A P P E N D I X ~ B


     Agency Comments




OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   19
A   P   P E N D       I X ~          B




    OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   20
Δ   A AC CK KN NO OW WL LE ED DG GM ME EN NT TS S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director, Prescription Drug Pricing
                  Unit.

                  Edward K. Burley served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Roman Strakovsky; other central office staff who contributed include
                  Linda B. Abbott.




OEI-03-07-00190   A C O M PA R I S O N   OF   ASPS   TO   W I D E LY A V A I L A B L E M A R K E T P R I C E S   FOR   I N H A L AT I O N D R U G S   21
